No. _________
IN THE SUPREME COURT OF THE UNITED STATES

LEONEL RODRIGUEZ-CARAVEO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Adam Nicholson
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Adam Nicholson **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24097045
525 S. Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10974, dated
May 13, 2021, United States v. Rodriguez-Caraveo, 847 F. App'x 250
(5th Cir. May 13, 2021) (unpublished).
Appendix B Judgment and Sentence of the United States District
Court for the Northern District of Texas, entered September 10, 2020.
United States v. Rodriguez-Caraveo, Dist. Court
5:20-CR-00001-H-BQ-1.

APPENDIX A

Case: 20-10974

Document: 00515861073

Page: 1

Date Filed: 05/13/2021

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED
May 13, 2021

No. 20-10974
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Leonel Rodriguez-Caraveo,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:20-CR-1-1
____________________________
Before Haynes, Willett, and Ho, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A

Case: 20-10974

Document: 00515861061

Page: 1

Date Filed: 05/13/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

May 13, 2021

No. 20-10974
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Leonel Rodriguez-Caraveo,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:20-CR-1-1
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
Leonel Rodriguez-Caraveo appeals his conviction for illegal reentry
after deportation and his within-guidelines sentence of 32 months of
imprisonment and three years of supervised release. He argues for the first
time on appeal that 8 U.S.C. § 1326(b) is unconstitutional because it allows a

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A

Case: 20-10974

Document: 00515861061

Page: 2

Date Filed: 05/13/2021

No. 20-10974

sentence above the otherwise applicable statutory maximum based on facts
that are neither alleged in the indictment nor found by a jury beyond a
reasonable doubt. He also makes the related argument that his guilty plea
was involuntary because he was not informed that his prior felony conviction
was an element of the offense. He concedes that these issues are foreclosed
by Almendarez-Torres v. United States, 523 U.S. 224 (1998), but he seeks to
preserve them for possible Supreme Court review. Agreeing that the issues
are foreclosed, the Government has filed a motion for summary affirmance
and, in the alternative, a motion for an extension of time to file a brief.
The parties are correct that Rodriguez-Caraveo’s arguments are
foreclosed by Almendarez-Torres. See United States v. Wallace, 759 F.3d 486,
497 (5th Cir. 2014); United States v. Pineda-Arrellano, 492 F.3d 624, 625-26
(5th Cir. 2007).

Accordingly, the Government’s motion for summary

affirmance is GRANTED, see Groendyke Transp., Inc. v. Davis, 406 F.2d
1158, 1162 (5th Cir. 1969), the Government’s alternative motion for an
extension of time to file a brief is DENIED as moot, and the judgment is
AFFIRMED.

2

App. A

APPENDIX B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20

Page 1 of 7 PageID 113

UNrrEo Srargs DrsrRrcr Counr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

I

UNITED STA'fES OF AMERICA

.IUDGMENT IN A CRIMINAL CASE

5

I
I
LEONEL RODRIGUEZ-CARAVEO

s
5
5

Case Number: 5:20-CR-00001

-H-BQ(l

)

USM Number: 48312-177
Wade William Iverson
Defendanl's Attomey

THE DEFENDANT:

tr

pleaded guilty to count(s)

x

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court

tr
tr

I
I

I of the indictment filed .lanuarv

8. 2020.

was found guilty on count(s) after a plea of not guilb"

The defendant is adjudicated guilty ofthese offenses

Title & Section / Natur€ of Offens€
8 U.S.C. $li 1326(a). 1326(b)(l). and 6 U.S.C. $$ 202(3).202(4),
AI."TER DEPORTATION

AND 557 ILLEGAL RE-ENTRY

Offense Ended

Count

t2lt6t20t9

I

The defendant is sentenced as provided in pages 2 through 7 ofthisjudgnent. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

D The defendant has been found not guilty on count(s)
E Coun(s) tr is E Remaining count(s) are dismissed on the motion ofthe United States
It is ordered that the defendant must notiry the United States attomey for lhis distict within 30 days ofany change ofname,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by thisjudgment are fully paid. tf
ordered to pay restitution, the defendant must notiry the court and United States attomey ofmaterial changes in economic
circumstances.

Sentember 10, 2020
Date of Imposilion of Judgment

s

ofJtldge

lt &^=

m es Weslev Hendrix
nited States District Judge
Name and Title ofJudge

Scptember 1O 2020
Date

App. B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 2 of 7 PageID 114

Criminal Case

Judgmcnt-Page2of7

LEONEL RODRIGUEZ-CARAVEO
5:20-CR-00001-H-BQ(l)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau of Prisons to be imprisoned for a total term

of

32 months as to count L

tr

The court makes the following recommendations to the Bureau of hisons:

The Court recommends that, while incarcerated, the defendant receive appropriate substance-abuse and mental-health treatment. but
the Court did not lengthen the defendant's prison term to promote rehabilitation. SeeTapiav.UnitedStates,564U.S.3l9(2011).

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district:

tr

at

tr

as

E

l

a.m.

p.m.

on

notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons

tr
tr
tr

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation ol Pretrial Services Office

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

with a certified copy ofthis judgment.

T]NITED STATES MARSI IAI-

By
DEPUTY LINITED STATES MARSHAL

App. B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20

Page 3 of 7 PageID 115
Judgment-Page3of7

AO 2458 (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:

CASENUMBER:

LEONEL RODRIGUEZ.CARAVEO
5:20-CR-00001-H-BQ(l)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of

:

three (3) years.

MANDATORY CONDITIONS

l.
2.
3.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must reliain fiom any unlawful use of a controlled substance. You must submit to one drug test within I 5 days of release
from impdsonment and at least two periodic drug tests thereafter, as determined by the court.

E

The aboye drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4. E

You must make restitution in accordance with l8 U.S.C. $$ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

5. X
6. E

You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable\

7, E

You must participate in an approved program for domestic violence. (check ifapplicable)

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. $ 20901, et
seq.) as directed by the probation officer, the Bureau ofPrisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted ofa qualifuing offense. (chec* ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

App. B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20
AO 2458 (l{ev.1XN 9/19)Judgmcnt in

DEFENDANT:
CASE NUMBER:

a

Page 4 of 7 PageID 116

Criminal Casc

Judgment-Page4of7

LEONEL RODRIGUEZ-CARAVEO
s:20-CR-0000 l -H-BQ( 1 )

STANDARD CONDITIONS OF SUPERVISION
As part ofyour supervised release, you must comply with the following standard conditions ofsupervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identi! the minimum tools needed
by probation officers lo keep informed, report to the court about, and bring about improvements in your conduct and condition.

l. You must report to the probation office in the federaljudicial district where you are authorized to reside within 72 hours ofyour
fiom imprisonment. unless the probation officer instructs you to report to a different probation offce or within a different time

release

frame2. After initially reporting to the probation office, you will receive instructions from the court or the probation ollicer about how and
when you musl report to the probation offrcer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federaljudicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation ollicer. [fyou plan to change where you live or anything about your liying
arrangements (such as the people you live with), you must notify the probation omcer at least l0 days before the change. If notifring
the probation officer in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72
hours ofbecoming aware of a change or expected change.
6. You must allow the probation omcer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. Ifyou do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you liom doing so. Ifyou plan to change where you work or anything about your work (such as your position or yourjob
responsibilities), you must notiry the probation officer at least l0 days before the change. If notifring the probation officer at least l0
days in advance is not possible due to unanticipated circumstances, you must notiry the probation oflcer within 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. [fyou know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first getting the permission ofthe

probation officer.
9. Ifyou are anested or questioned by a law enforcement officer, you must notifr the probation officer within 72 hours.
10. You must not own, possess, or have access to a f[earm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or
tasers).
I 1. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant

without first getting the permission ofthe court.
12. If the probation olficer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notiry the person about the risk and you must comply with that instruction. The probation oflicer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Ollice Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy ofthis judgment containing these conditions. I understand additional information regarding these
conditions is available at www.Ixnp uscourts. qov.
Defendant's Signature

Date

App. B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20

Page 5 of 7 PageID 117

AO 245B (Rev. TXN 9/19) Judgment in a CriminalCase

DEFENDANT:

LEONEL RODRIGUEZ.CARAVEO

CASE NI]MBER:

5:20-CR-0000 I -H-BQ(1 )

Judgment-Page5of7

SPECIAL CONDITIONS OF SUPERVISION
1

2

The defendant shall not illegally re-enter the United States, if deported, removed, or allowed
voluntary departure.

As a condition of supervised release, upon completion of his term of imprisonment, the
defendant is to be surrendered to a duly-authorized immigration official for deportation in
accordance with the established procedures provided by the Immigration and Nationality
Act,8U.S.C. $ 1101 etseq. As a further condition of supervised release, if ordered
deported, the defendant shall remain outside the United States. In the event the defendant is
not deported immediately upon release from imprisonment, he shall also comply with the
standard conditions recommended by the U.S. Sentencing Commission.

App. B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20

Page 6 of 7 PageID 118

AO 2458 (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment--Pagc6of7

LEONEL RODRIGUEZ-CARAVEO
s:20-CR-00001-H-BQ( I )

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary p€nalties under the schedule ofpayments page.

TOTALS

D
tr

Assessment

Restitution

$ 100.00

$.00

Fine
s.00

AVAA Assessment*

JVTA Assessment**

s.00

$.00

until

The determination ofrestitution is deferred
An Amended Judgment in a Criminal Cdse (AO215C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

lf the defendant makes a partial payment. each payec shall receive an approximately p.oportioned payment. However. pursuant
U.S.C. $ 3664(i). all nonfederal victims must be paid before the United States is paid.

tr
tr
tr

to l8

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to l8 U.S.C. $ 3612(0. All ofthe paymenl options onthe schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. $ 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the

E fine
E fine

tr
tr

restitution
restitution is modified as follows:

i

Amy. vicky. and Andy Child Pomography victim Assistance Act of20l8, Pub. L. No. 115-299.
Justic€ for Victims of Traflicking Act of 2015. Pub. L. No. I 14-22
*** Findings for the total amount of losses arc required under Chapters 109,4, I 10, I l0A, and I l3A of Title l8 for offenses committed on or after
*+

September 13. 1994. but before

April 23. 1996.

App. B

Case 5:20-cr-00001-H-BQ Document 46 Filed 09/10/20
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:
CASENUMBER:

a

Page 7 of 7 PageID 119
Judgment - Page 7 of 7

Criminal Case

LEONEL RODRIGUEZ-CARAVEO
5 :20-CR-00001 -H-BQ( 1)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows:

A E
n

due immediately, balance due

Lump sum payments of $
not later

than

,

or

tr D, tr E, or
C,
Payment to begin immediately (may be combined with tr
accordance tr C,

E
B E

in

C tr

Payment in equal

(e.g., weekly, monthb), quarterly) installments

Payment in equal 20 (e.g., weekly, monthly, quqrterly) installments of $
(e.g., months or years), to commence

to
E

E

a

term of supervision; or

F below; or

D,

or

-

tr

of$

F below); or

over

k.g., 30 or 60 days) after the

(e.g., months or years), to commence

D E

tr
tr

a

period

of

date ofthisjudgment; or

over a period

of

(e.g., 30 or 60 days) after release fiom imprisonment

(e.g., 30 or 60 doys) after release
Payment during the term ofsupervised release will commence within
from imprisonment. The court will set the payment plan -based on an assessment ofthe defendant's ability to pay at that

time; or

f

X

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, lYhich
shall be due immediately. Saiti special assessment shall be paid to the Clerk, U'S. District Court.

monetary penalties is
Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment, payment of criminal
Federal Bureau of Prisons'
due during imprisonment. Ail criminal monetary penalties, except those payments made through the
Inmate Financial Responsibility Program, are made to the clerk ofthe court'
penalties imposed.
The defendant shall receive credit for all payments previously made toward any criminal monetary

El

Joint and Several
numbet), Total Amount, Joint and
See above for Defendant and Co-Defendant Names and Case Numbers filc/&di ng defendant
Seveml Amount, and corresponding payee, if apgopriate.

tr
tr
tr

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following court cost(s):

United States
The defendant shall forfeit the defendant's interest in the following property to th€

payments shall be applied in the following order: (l) assessment, (2) Iestitution principal, (3) restitution intefest, (4) AVAA
(8) JVTA assessment, (9) penalties, and (10) costs,
assessment, (5) fine principal, (6) fine interest, (7) community restitution,

including cost ofprosecution and court costs.

App. B

